HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed
in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02656)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02656)
December 23, 2002
Complete
Text of Report is available in PDF format (427 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness of Blue Cross
and Blue Shield of Kansas, Inc.'s claims processing system in identifying payment
reductions for multiple ambulatory surgical center procedures for calendar years
1997 through 2001. Regulations require that when multiple services are provided
in the same operative session, the highest paying procedure is reimbursable
at the full payment rate while the other procedures are reimbursable at one-half
the normal payment rate.  Our analysis showed that Blue Cross and Blue
Shield of Kansas, Inc.s systems failed to identify such instances, which resulted
in provider overpayments for calendar years 1997 through 2001of approximately
$10,345, $41,708, $45,265, $64,552, and  $79,170 ($241,040), respectively.
Included in the identified overpayments is approximately $50,934 in beneficiary
overpayments for coinsurance.  Most of the overpayments occurred because
the carriers processing system did not identify multiple procedures performed
during the same session when submitted on separate claims.